OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/REGIONAL
DEVELOPMENT MISSION FOR
ASIA’S BEHAVIOR CHANGE
COMMUNICATION FOR
INFECTIOUS DISEASE
PREVENTION PROJECT

AUDIT REPORT NO. 5-486-14-004-P
SEPTEMBER 5, 2014


MANILA, PHILIPPINES
Office of Inspector General


September 5, 2014

MEMORANDUM

TO:               USAID/Regional Development Mission for Asia Mission Director, Michael Yates

FROM:             Regional Inspector General/Manila, Matthew Rathgeber /s/

SUBJECT:          Audit of USAID/Regional Development Mission for Asia’s Behavior
                  Change Communication for Infectious Disease Prevention Project (Report No.
                  5-486-14-004-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them, without attachments, in Appendix II.

The report includes seven recommendations to help the mission address the issues identified
by our audit. We acknowledge management decisions on Recommendations 1 and 4 through 7
and final action on Recommendations 2 and 3. Please provide the necessary documentation to
obtain final action on the open recommendations to the Audit Performance and Compliance
Division in the Office of the Chief Financial Officer. Recommendations 2 and 3 are closed upon
issuance of this report.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Annex 2 Building
U.S. Embassy
1201 Roxas Boulevard
1000 Ermita, Manila, Philippines
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 5

     Project’s Goal Was Not Realistic or Within USAID’s Manageable Interest ............................. 5

     Mission Did Not Analyze the Cost of Using a Consortium, Which Was Not
     Providing an Effective Regional Response ............................................................................ 6

     Some Reported Results Were Unsupported, Unreliable ........................................................ 7

     Project Was Not Doing Enough to Build Capacity and Sustainability of Local
     Partners ................................................................................................................................ 8

     Despite Terminating a Local Partner for Fraud, Implementer Did Not Give
     Fraud Awareness Training to Other Partners ...................................................................... 10

     USAID Lacks Formal Agreements With the Governments of Laos and
     Thailand .............................................................................................................................. 11

Evaluation of Management Comments.................................................................................. 12

Appendix I—Scope and Methodology ................................................................................... 13

Appendix II—Management Comments .................................................................................. 15



Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
CAP-3D          control and prevention of three diseases—HIV, malaria, and TB
CPP             Comprehensive Prevention Package
MOU             memorandum of understanding
NGO             nongovernmental organization
PSI             Population Services International
RDMA            Regional Development Mission for Asia
RIG             Regional Inspector General
TB              tuberculosis
SUMMARY OF RESULTS
The greater Mekong subregion is a natural area of economic cooperation linking six countries—
Burma (also known as Myanmar), Cambodia, China, Laos, Thailand, and Vietnam. The Mekong
River, which forms the western border of Laos as shown in the map below, runs through all six.
The countries’ economic ties and unequal levels of development encourage their people to
cross borders to find work. And cross-border movement makes the spread of infectious
diseases a concern.




                          Source: Mekong Tourism Coordinating Office.

Three diseases stand out: HIV, malaria, and tuberculosis (TB). As in many countries, HIV is
concentrated among most-at-risk, stigmatized populations such as men who have sex with men,
transgendered people, female sex workers and their clients, and people who inject drugs.
Malaria is endemic in some locations, and eradication is a global priority given the region’s past
propensity for developing drug-resistant strains of the disease. Additionally, in parts of Burma
and China, TB is a leading cause of death and disability.

To address these health challenges, in December 2010, USAID/Regional Development Mission
for Asia (RDMA) awarded a 5-year, $36 million cooperative agreement to Population Services
International (PSI) to implement the Behavior Change Communication for Infectious Disease


                                                                                                1
Prevention Project, known as CAP-3D.1 The project’s goal is to reduce morbidity and mortality
related to HIV, malaria, and TB in Burma, China, Laos, and Thailand by increasing an effective
regional response with greater country involvement in preventing and mitigating these diseases.
The project’s strategy for achieving this goal was to increase the reach and sustainability of
activities by shifting from an international nongovernmental organization (NGO)-driven, USAID-
funded model to activities implemented by strong local institutions sustained by local
government buy-in and diverse funding sources. As of December 31, 2013, USAID/RDMA had
obligated about $21 million, and the project had spent $17 million.

For the cooperative agreement, PSI proposed a consortium of five international NGOs, including
PSI, to implement the project. PSI would lead the consortium and manage its partners and the
project. The intent of the consortium approach was for each international NGO to bring its
specialized expertise so that collectively they could deliver high-quality services, build the
capacity of local organizations, and mobilize resources for scale-up.

The Regional Inspector General/Manila (RIG) conducted this audit to determine whether
USAID/RDMA’s Behavior Change Communication for Infectious Disease Prevention Project
was achieving its main goal of reducing morbidity and mortality related to HIV/AIDS, TB, and
malaria in the greater Mekong subregion by increasing an effective regional response to
mitigate these diseases.

Despite some notable accomplishments during an abbreviated implementation period in China,2
the project fell short of its key performance targets for prevention, counseling, testing, and care
in 2012 for all four countries in aggregate. In 2013, even though the project’s target for
prevention activities was 68 percent lower than in 2012, results still came up short. Although the
project did report modest gains in counseling, testing, care, and treatment, the reliability of the
results was questionable because of PSI’s weak monitoring system, discussed later in this
report.

According to USAID’s final evaluation of activities in China, the project improved models of
service delivery through local partners, documented their effectiveness, and advocated for
making these models the regional standard of quality for HIV/AIDS prevention for most-at-risk
populations. However, the evaluation noted that the impact of several activities was either
difficult to measure with current methods or could not be measured because the indicators used
were not appropriate.

In the other three countries, the project underperformed during 3.5 years of implementation on
its three intended intermediate results, as noted below:

1. Improved access to prevention, care, and treatment. The project was to implement an
   effective regional response to the spread of infectious disease by improving access to
   prevention, care, and treatment. However, there is little evidence that the project’s
   consortium of five international NGOs contributed to a well-coordinated and managed
   regional response.

2. Strategic information collected and used. The project was to collect and store data for
   monitoring and evaluating activity outcomes and impact, data that partners could use to
   advocate for scale-up. However, data were unreliable, limiting their use for advocacy.

1
    An abbreviation for “control and prevention of three diseases”—HIV, malaria, and TB.
2
    Project activities in China ended halfway through the planned 5-year period because of budget cuts.

                                                                                                          2
3. Technical assistance and capacity building linked to scale-up. The project’s major
   emphasis was to reduce dependence on external donor resources by strengthening local
   institutions and securing local government buy-in and diverse funding sources. However, the
   majority of the project’s local partners interviewed said PSI did not provide enough capacity
   building or technical assistance to equip them to take on project activities.

The following weaknesses contributed to the project’s underperformance:

     The project’s goal was not realistic or within USAID’s manageable interest3 (page 5).
      Automated Directives System (ADS) 200.3.3 states: “USAID’s intent is to select objectives
      that reach high and inspire others, but that are also within its manageable interest.” Given
      the limited funding and scale of activities, USAID or PSI cannot say that the project is
      reducing morbidity and mortality related to HIV/AIDS, malaria, and TB at the national level.
      Further, it is misleading to characterize this project as encompassing all three diseases,
      because it essentially focuses on HIV/AIDS.

     The mission did not analyze the cost of using a consortium to implement the project, which
      was not providing an effective regional response (page 6). PSI officials acknowledged that
      the project’s regional response amounted to multiple independent partners implementing
      four individual country programs.

     Some reported results were unsupported and unreliable (page 7). Local partners said
      double counting of clients might have occurred, and audit testing confirmed an earlier
      mission assessment noting inconsistencies between the numbers reported by partners and
      their supporting documentation.

     PSI was not doing enough to build the capacity and sustainability of local partners (page 8).
      A representative of one local partner said PSI feared losing business to local organizations.

     Despite terminating a local partner for fraud in Burma, PSI did not give other partners fraud
      awareness training to share the lesson learned (page 10). PSI seemed to compartmentalize
      the incident and the response to it.

     USAID lacks formal agreements with the Governments of Laos and Thailand (page 11).
      Instead, it takes an informal approach, using regional assistance mechanisms that channel
      funds through NGOs to implement projects like CAP-3D. Government officials in both
      countries viewed this approach as confusing and cumbersome.

Mission officials doubted whether PSI would be able to turn the project around in the 1.5 years
remaining given its record of performance. They thought the mission should focus on planning a
transition strategy to sustain any gains made by the project while working with PSI to make
practical adjustments that are achievable. The recommendations below are designed to help the
mission do so.

We recommend that USAID/RDMA:

1. Reassess its manageable interest in the project and amend the goal in the cooperative
   agreement as appropriate so that it is realistic, achievable, and measurable (page 6).

3
    Its ability to accomplish, working with others who share the goal (ADS 200).

                                                                                                 3
2. Conduct a cost-benefit analysis of the remaining budget for the project and make
   adjustments as necessary (page 7).

3. Implement a plan to strengthen the project’s monitoring and reporting system and train local
   partners in its use (page 8).

4. Review project data previously reported to Washington, and correct any errors found
   (page 8).

5. Implement a plan to make building capacity and sustainability of local partners a priority.
   The plan should consider conducting a mapping exercise and the preaward surveys of local
   partners described in the Additional Help for Automated Directives System 303 to qualify
   them to receive direct funding from USAID (page 9).

6. Work with PSI to include fraud awareness briefings as part of the project’s sharing of
   lessons learned and best practices (page 10).

7. Implement formal agreements with the Ministries of Health in Laos and Thailand (page 11).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. Our evaluation of management comments is included on page 12, and the
full text of management comments without attachments appears in Appendix II.




                                                                                               4
AUDIT FINDINGS
Project’s Goal Was Not Realistic or
Within USAID’s Manageable Interest

ADS 200.3.3 states: “USAID’s intent is to select objectives that reach high and inspire others,
but that are also within its manageable interest.” During project design, manageable interest is
one of the key considerations. ADS 201.3.11.2, “The Logical Framework – The Analytical Tool
for Project Design,” states that “if there are significant doubts about manageable interest and
assumptions, the project goal may need to be re-examined.” The project’s purpose should be
clearly stated in a form that can be measured and strike a balance between being ambitious and
realistic.

However, according to USAID officials and implementer staff, the project’s goal was not realistic
or measurable, and not within the manageable interest of USAID. A number of consortium
partners said the project’s goal was problematic. Some had raised questions about it from the
start. Given the limited level of funding and scale of activities, neither USAID nor PSI can say
that the project is reducing morbidity and mortality related to HIV/AIDS, malaria, and TB at the
national level in each country. Measuring and attributing reductions within the targeted
populations are difficult because of limitations of surveillance data and the project’s weak and
unreliable monitoring systems. Furthermore, while the project was intended to focus on all three
diseases in various targeted populations, it actually turned out to be a HIV/AIDS project focusing
on men who have sex with men, and transgendered people. According to the agreement
officer’s representative, the project’s level of effort on HIV/AIDS was about 98.5 percent, versus
83 percent as originally intended.

The project’s acting chief of party, who worked on PSI’s proposal, explained how the goal
originated. He said PSI crafted the project’s goal in response to USAID’s request for
applications. He explained that PSI staff tried to capture what they thought USAID wanted in
order to win the award.

However, a review of USAID’s request for applications document revealed that the program
description stated, “Through this award, USAID/RDMA will stay consistent with the Office of
Public Health’s assistance objective: to increase an effective regional response to prevent and
mitigate HIV/AIDS, malaria, tuberculosis, avian influenza, and other emerging infectious
diseases.” The document did not explicitly state that the goal of the project was to reduce
morbidity and mortality related to those diseases.

Nonetheless, for reasons that are unclear, the mission went along with PSI’s proposed project
goal when the cooperative agreement was awarded.

As a result, the project will not be able to achieve its goal, and it will be difficult for USAID to
hold PSI accountable for performance that is unachievable under the cooperative agreement.
Further, it is misleading to characterize this project as CAP-3D, when it essentially focuses on
HIV/AIDS.




                                                                                                  5
   Recommendation 1. We recommend that USAID/Regional Development Mission for
   Asia reassess its manageable interest in the CAP-3D project and amend the goal in the
   cooperative agreement as appropriate so that it is realistic, achievable, and measurable.

Mission Did Not Analyze the Cost of Using
a Consortium, Which Was Not Providing
an Effective Regional Response
USAID’s ADS 201.3.15.3, “Stage 2: Process – Analytical Stage,” states that economic and
financial analysis is part of project design. The guidance proffers cost-benefit analysis, “a
decision-making approach used to determine if a proposed project is worth undertaking or to
choose between several alternative ones.”

According to its cooperative agreement with USAID/RDMA, PSI was to take a regional
approach to meet the project’s goal of providing an effective regional response to the spread of
infectious disease. Consortium members were expected to test innovative models to improve
access to prevention, care, and treatment and replicate them through technical assistance to
local partners in the region.

However, the mission did not do a cost-benefit analysis of PSI’s bid to implement the project
through a consortium, and the consortium of five international NGOs was not cost-effective. As
of December 31, 2013, the project had spent $17 million of the $36 million budget in total. The
international consortium had spent $15.5 million (91 percent), of which $13.7 million was for
PSI. Only $1.5 million (9 percent) went to the 13 local partners. A significant amount of funding
went to supporting offices, staff, allowances, travel, and indirect costs for the five international
NGOs in Bangkok. A few of the international NGOs we visited in Bangkok had their offices in
well-appointed buildings located in high-cost areas of the city.

Despite the amount of money spent, there is little evidence that the five international NGOs
contributed to a well-coordinated and managed regional response on the project. While PSI
provided some examples of regional learning and exchanges between countries, most partners
we interviewed (including some consortium NGOs) did not consider the approach regional and
said the consortium was confusing, expensive, and inefficient. Instead, individual country
projects emerged, each going in its own direction, with PSI trying to manage them regionally
from Bangkok.

As an example, PSI issued to AIDS Projects Management Group, an international NGO in
Bangkok and a consortium member, a $1 million subaward to work collaboratively with local
partners to develop new models of HIV service delivery. The models were to help reverse the
upward trend in HIV rates among men who have sex with men, and transgender people in
Thailand. Although the NGO developed a new model for HIV service delivery, its relationship
with the project’s local partners deteriorated to the point where they did not talk to one another.
The director said relations with other local organizations were so strained that he doubted they
would accept and scale up the new service delivery model.

In hindsight, USAID officials and implementer staff agreed that the project’s design was too
ambitious and complicated to cover three diseases in four countries with a consortium of five
international NGOs and a number of local partners. According to a USAID official involved with
selecting the project’s implementer, an international consortium was not required, but PSI
consortium members’ organizational strengths and presence in the focus countries impressed

                                                                                                  6
USAID panelists. Still, the mission did not conduct a cost-benefit analysis of using a consortium.
PSI also struggled to provide consistent leadership and to hold the consortium together. The
chief of party—the top project official hired by PSI—changed three times after the start of the
project. The person doing the chief of party’s job at the time of the audit was acting, and PSI
was looking for yet another replacement. In addition, the chief of party and a number of other
staff working on the project also have regional office responsibilities and work on other projects.
Therefore, they are not completely dedicated to CAP-3D, whereas other USAID-funded projects
usually have dedicated staff.

Further, the international NGOs in the consortium were accustomed to leading USAID projects,
not being sub-partners. An official with a consortium NGO said his organization was
uncomfortable with its place on the project from the start, did not agree with many of PSI’s
approaches, and found PSI staff difficult to work with. For their part, PSI officials explained that
it was difficult to communicate with multiple partners and acknowledged that the project’s
regional response amounted to multiple independent partners implementing four individual
country programs.

In October 2013, USAID/RDMA officials met with PSI to discuss the project’s progress and work
plan status. The officials expressed concerns about the rate and quality of implementation. In
January 2014, after a lengthy back-and-forth between the agreement officer’s representative
and PSI regarding the work plan, USAID/RDMA’s agreement officer warned PSI that it was in
noncompliance with the cooperative agreement. To the agreement officer’s representative’s
credit, he did not approve activities PSI proposed that were outside the project’s scope or did
not make programmatic sense.

Because there was not an effective regional response, a number of local partners did their own
research and introduced new services and methods for most-at-risk populations. Local partners’
ability to do this work at a fraction of the cost raises questions as to why USAID is paying
millions to PSI and its consortium partners to do it. At the same time, PSI missed opportunities
to provide needed regional support to its local partners—for example, providing staff who speak
other languages to deal with the cross-border migrant populations needing services or scaling
up proven technical approaches to reach more people.

   Recommendation 2. We recommend that USAID/Regional Development Mission for
   Asia conduct a cost-benefit analysis of the remaining budget for the project and make
   adjustments as necessary.

Some Reported Results Were
Unsupported, Unreliable
According to the cooperative agreement, the second intermediate result of the project was to
“implement a strategic information agenda.” That meant establishing a monitoring and reporting
system that would collect and store data needed to “monitor outcomes, evaluate impact and
advocate for scale up.” ADS 203.3.11.1, “Data Quality Standards,” states that data for
performance monitoring should be valid (“clearly and adequately represent the intended result”)
and reliable (“reflect stable and consistent data collection processes and analysis methods over
time”). Both standards depend on documentation.

The cooperative agreement also required PSI to “disseminate . . . resources on monitoring and
evaluation methodologies to local partners and train them in using these research tools.”

                                                                                                  7
However, during the first 2 years, the project’s data did not meet standards. Some data lacked
support. For example, PSI could not provide documents supporting the project’s reported data
for 2011 and 2012. PSI officials said that for the first 2 years of reporting, one of its consortium
partners (Pact) was responsible for data collection and consolidation. Yet Pact officials said their
organization was only responsible for collecting data on Pact’s activities, and they had no idea
what PSI was asserting. Clearly, there was confusion among consortium members about who
was supposed to do what.

Other data disagreed with supporting documents. Limited audit testing of individual partners’
data noted inconsistencies between the numbers they reported and their supporting
documentation, which the mission’s earlier assessment of data quality had noted. Additionally,
officials from local partners said there could be some double counting of people reached by
prevention efforts, as well as of those who got counseling and testing for HIV and received their
test results. Before the introduction of the unique identifier code in early 2014, the project’s data
collection method could not detect repeat clients across the project.

Furthermore, PSI did not help partners with data collection or adequately train local partners in
monitoring and evaluation. Until the end of September 2013 (almost 3 years into the project),
PSI had not established a monitoring and evaluation unit for the project. Local partners
explained that, until PSI created this unit, they had not received reporting requirements or a list
of indicators with clear definitions that would guide them in collecting valid data. Local partners
in Thailand explained that even with the recent improvements, which included the use of a
logbook for data entry, users still were not sure exactly what data to record. In some cases, the
logbook was not as good as the local partners’ own data collection tools. For example, mission
officials said a local partner in Thailand had a better system for collecting and recording data
than PSI’s. Nevertheless, officials from local partners interviewed said they needed technical
assistance to strengthen their data collection, monitoring, and evaluation.

USAID/RDMA officials who assessed the quality of data provided by PSI and its partners said
there could have been errors in the data reported to Washington. Because the quality and
reliability of the project’s reported results are doubtful, PSI’s ability to deliver results under
Intermediate Result 2 is questionable.

   Recommendation 3. We recommend that USAID/Regional Development Mission for
   Asia implement a plan to strengthen the project’s monitoring and reporting system and
   train local partners in its use.

   Recommendation 4. We recommend that USAID/Regional Development Mission for
   Asia review project data previously reported to Washington and correct any errors found.

Project Was Not Doing Enough to
Build Capacity and Sustainability
of Local Partners
According to the cooperative agreement, the overarching strategy for this project is to increase
the reach and enhance the sustainability of the model for HIV prevention—the Comprehensive
Prevention Package (CPP)—by improving delivery through local partners, documenting
effectiveness, and advocating to make the model the regional standard. The third intermediate
result of the project was to “build the capacity of local partners to take increasing responsibility
for full implementation of CPP.”

                                                                                                   8
Yet the majority of the project’s local partners interviewed said that PSI did not provide enough
capacity building or technical assistance. They said that PSI or Pact (a consortium partner)
provided some support through workshops for monitoring systems, doing organizational
assessments, planning, and documenting policies and procedures. However, the local partners
said they needed technical assistance on delivering high-quality services, strengthening
monitoring systems (as noted above), and building financial sustainability.

The views of some local partners about why PSI had not built their capacity follow:

   In Laos, local partners and ministry officials felt that PSI was reluctant to build local capacity
    and to cede project implementation because if PSI handed over implementation of this
    project to local partners, it would have to scale down its own operations dramatically.

   In Thailand, a local partner is Sisters, an affiliate of PSI. Sisters is scheduled to become an
    independent, registered foundation in June 2014. However, its management expressed
    serious concerns that it was not ready because PSI had not laid the groundwork. PSI had
    not created a transition plan for funding, staffing, or project activities after Sisters becomes a
    foundation. Sisters management officials said they had communicated concerns to PSI but
    had not received any response.

   An official from another local partner in Thailand said that typically months go by without
    feedback from PSI on reports submitted. PSI asks questions only when USAID asks
    questions about the reports. This official felt PSI was not fully engaged in the project.

Asked about these concerns, PSI officials said there were issues and disagreements with Pact’s
approach to capacity building activities in Laos and Thailand. According to the cooperative
agreement, capacity building was Pact’s main responsibility.

As a result, local partners were not readying to take full responsibility for CPP as intended by
the project, and their sustainability is doubtful. The potential benefits of CPP include behavior
change communication (such as radio spots promoting condom use), voluntary HIV counseling
and testing, condom and lubricant distribution, diagnosis and treatment of sexually transmitted
infections, harm reduction for injecting drug users, and links to care and support for people living
with HIV and AIDS.

During the audit, the agreement officer’s representative said the mission was considering
making direct awards to qualified local organizations to help scale up CPP instead of channeling
funds through PSI. However, the mission had not yet done a mapping exercise to identify
potential local partners or conducted preaward surveys to determine whether prospective
partners are “sufficiently responsible to receive USAID funding,” in accordance with USAID
policy.4

    Recommendation 5. We recommend that USAID/Regional Development Mission for
    Asia implement a plan to make building capacity and sustainability of local partners a
    priority. The plan should consider conducting a mapping exercise and the preaward
    surveys of local partners described in the Additional Help for Automated Directives
    System 303 to qualify them to receive direct funding from USAID.

4
  “USAID Policy Guidance on Delegated Cooperation and Responsibility Determinations Regarding
Development Partners: Requirements and Resources,” a Mandatory Reference for ADS Chapters 308
and 351. Preaward surveys of non-U.S. organizations are discussed in an Additional Help for ADS 303.

                                                                                                    9
Despite Terminating a Local Partner for
Fraud, Implementer Did Not Give Fraud
Awareness Training to Other Partners

According to USAID’s Anticorruption Strategy,

       A strong global consensus has emerged that addressing corruption and building
       good governance is essential for the development of people, markets, and
       nations. . . . Corruption undermines service delivery, particularly for the poor . . . .
       Weak procurement and financial systems yield both fraud and unaccounted-for
       leakages of funding.

To fight corruption and fraud, the Strategy outlined a number of best practices, including
“implementing assistance in ways that assure transparency and accountability” and providing
fraud awareness training for implementers.

In addition, ADS 596.3.1, Establishing Internal Controls,” states: “Management and employees
must establish and maintain a control environment throughout the organization that sets a
positive and supportive attitude toward internal control and conscientious management.” Such
an environment includes “policies, procedures, and tools used to reasonably ensure that . . .
programs and resources are protected from waste, fraud, and mismanagement” (ADS 596.6,
“Definitions”).

In June 2013, PSI terminated its subaward to a local partner in Burma because of fraud. The
local partner made false claims to PSI in the form of inflated costs and invoices for training that
never occurred. PSI took the necessary and appropriate action to terminate the subaward.

However, PSI did not provide fraud awareness training to its other project partners. Such
training would include fraud indicators and lessons learned from what happened in Burma to
prevent similar incidents. None of the partners we interviewed, including PSI’s regional office in
Bangkok, had received any training or guidance from PSI.

Although the cooperative agreement states, “PSI will share lessons learned and best practices,”
PSI had not done so in the area of fraud awareness or anticorruption. Interview comments by
PSI officials in Bangkok showed their reluctance to provide leadership and address this issue on
a wider scale. Instead, PSI management officials said the problem occurred in Burma and was
being handled by PSI Burma.

PSI missed an opportunity to promote anticorruption and fraud awareness with its partners and
to demonstrate a “positive and supportive attitude toward internal control and conscientious
management” to protect resources from waste, fraud, and mismanagement. This is of particular
concern because, according to Transparency International’s 2013 Corruption Perceptions Index,
the project is working in a region with a high level of public corruption: Burma ranked 157th of
175 countries, among the 20 most corrupt.

   Recommendation 6. We recommend that USAID/Regional Development Mission for
   Asia work with Population Services International to include fraud awareness briefings as
   part of the project’s sharing of lessons learned and best practices.



                                                                                                  10
USAID Lacks Formal Agreements
With the Governments of Laos and
Thailand
According to ADS 200.6, “Definitions,” a memorandum of understanding (MOU) lays out what
the parties to it agree on, including activities, expected results, and each party’s roles and
responsibilities. Although it cannot be used to obligate funds, “an MOU may be used to confirm
an agreement with a host government on a program that USAID will fund directly through an
obligating instrument signed with other parties.”

ADS also defines a Development Objective Agreement. It is a “bilateral obligating document
under which sub-obligations may be made for contracts, grants and cooperative agreements,
bilateral project agreements, etc. It sets forth a mutually agreed upon understanding between
USAID and the partner government . . .”

Ministry of Health officials we met with in Laos and Thailand expressed concerns that USAID
did not have formal agreements with their governments. Instead, USAID has been using an
informal approach through regional assistance mechanisms like this project that channel funds
through NGOs to implement activities. Ministry officials viewed this approach as confusing and
cumbersome. In Laos, officials said PSI operated independently, coordinating little with the
government during the first half of the project. Coordination has now improved, they said, but
more government involvement is needed.

The officials felt that having some kind of MOU with USAID would improve coordination and
communication and ensure that project implementation is in line with the governments’ strategic
plans. In Thailand, a ministry official said that an MOU with USAID would help bring needed
technical assistance to the government. Currently, if ministry officials have questions or need
technical assistance, they generally ask the Centers for Disease Control and Prevention, which
has technical experts imbedded at the ministry.

In 1996, USAID’s bilateral mission in Thailand closed. Then in 2003, USAID returned to
Thailand and opened a regional mission to implement programs in countries where there are no
USAID missions, such as China, Thailand, and Laos. In January 2011, USAID returned to Laos
after a 35-year absence, placing a staff person there. Until now, USAID has provided assistance
to Laos and Thailand through regional funding mechanisms managed in Bangkok. The mission
has not pursued MOUs with these countries because it did not prioritize MOUs in the past.
However, mission officials said they would begin making MOUs a priority.

Without formal agreements, USAID faces increased risk of misunderstandings with the partner
governments that could complicate project implementation. Misunderstandings could happen
regarding responsibilities, expectations, and project funding.

   Recommendation 7. We recommend that USAID/Regional Development Mission for
   Asia implement formal agreements with the Ministries of Health in Laos and Thailand.




                                                                                            11
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/RDMA agreed with all seven recommendations. We
reviewed management’s comments and supporting documentation and acknowledge
management decisions on Recommendations 1 and 4 through 7, as well as final action on
Recommendations 2 and 3. A detailed evaluation of management comments follows.

Recommendation 1. USAID/RDMA decided to reassess its manageable interest in the CAP-3D
project and amend the goal. It planned to modify the cooperative agreement to reflect the new
goal, “To sustainably increase the uptake of HIV counseling and testing among men who have
sex with men and transgender women in USAID supported service delivery sites.” The mission
gave a target completion date of September 15, 2014. We acknowledge the mission’s
management decision.

Recommendation 2. USAID/RDMA decided to and did conduct a cost-benefit analysis of the
remaining budget for the consortium partners, each of the four CAP-3D components (Burma,
Laos, Thailand, and Regional), and CAP-3D’s technical areas of focus. It planned these
adjustments: discontinuing funding to all consortium partners, closing the Regional and Laos
components, and discontinuing support for PSI’s HIV prevention activities. PSI has increased
funding to local partners: for the remaining period of the award, $1.2 million or 31 percent of the
remaining budget, will go to local partners. We acknowledge the mission’s management
decision and final action.

Recommendation 3. USAID/RDMA decided to and did work with PSI on a plan to strengthen
the project’s monitoring and reporting system and train local partners in its use. Implementation
of this plan began on July 7, 2014. We acknowledge the mission’s management decision and
final action.

Recommendation 4. USAID/RDMA decided to review project data previously reported to
Washington and correct any errors found. To do this, it began data quality assessments of CAP-
3D and its partners. The target date for completion is December 1, 2014. We acknowledge the
mission’s management decision.

Recommendation 5. USAID/RDMA decided to and did work with PSI on a revised work plan
prioritizing capacity building for local partners. Action on the plan was to begin August 4, 2014.
Additionally, the mission planned to start preaward surveys of local partners in October 2014.
The target date for completion of the surveys is March 31, 2015. We acknowledge the mission’s
management decision.

Recommendation 6. USAID/RDMA decided to work with PSI on a fraud awareness program
for local partners. The target date for completion is March 31, 2015. We acknowledge the
mission’s management decision.

Recommendation 7. USAID/RDMA decided to pursue formal agreements with the Ministries of
Health in Laos and Thailand to broadly cover all health activities. To the degree possible, it
planned to sign memorandums of understanding outlining areas of cooperation and
collaboration with both of them. The target date for completion is July 31, 2015. We
acknowledge the mission’s management decision.


                                                                                                12
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Manila conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions in
accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/RDMA’s Behavior Change
Communication for Infectious Disease Prevention Project was achieving its main goal of
reducing morbidity and mortality related to HIV/AIDS, malaria, and TB in the greater Mekong
subregion by increasing an effective regional response to mitigate these diseases. As of
December 31, 2013, USAID/RDMA had obligated about $21 million, and the project spent $17
million for 3 years of implementation.

The project has three intended intermediate results: (1) improved access to prevention, care,
and treatment, (2) strategic information collected and used, and (3) technical assistance and
capacity building linked to scale-up. The project was implemented in the greater Mekong
subregion, which includes areas of Burma, China, Laos, and Thailand. For the cooperative
agreement, PSI organized a consortium of five international NGOs to bring its specialized
expertise:

1.   PSI (lead)
2.   Pact
3.   Save the Children
4.   Research Triangle Institute
5.   AIDS Projects Management Group

The period of performance under the cooperative agreement was from January 15, 2011, to
January 14, 2016. Project activities in China ended on August 31, 2013, earlier than planned,
because of budget cuts. The audit covered selected activities carried out under the project’s
three intermediate results from start-up through December 31, 2013. The audit team elected to
perform fieldwork in Laos and Thailand and performed alternative auditing procedures for
Burma and China, such as examining and analyzing reported performance data, reports, and
records and conducting interviews with cognizant personnel.

In planning and performing the audit, the audit team assessed significant controls used by
USAID/RDMA to monitor project activities and ensure that PSI was providing adequate
management and oversight of them. The audit assessed the mission’s policies and procedures
for monitoring PSI’s progress in achieving the objectives listed in the (program description part
of the) cooperative agreement and for verifying that the project’s activities funded by USAID
conform to the terms and conditions of that award. In addition to the significant controls, we
assessed PSI’s quarterly and annual progress reports, as well as the annual work plans and
financial data. We also attended meetings with the mission and PSI and its partners to discuss
project status. We performed site visits to validate project achievements. Additionally, we
examined the mission’s fiscal year 2013 annual self-assessment of management controls—


                                                                                              13
                                                                                          Appendix I


which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act—to check whether the assessment cited any relevant weaknesses.

We conducted audit fieldwork from April 8 to May 6, 2014, at USAID/RDMA in Bangkok,
Thailand; the USAID country representative office in Vientiane, Laos; and PSI’s office and
partner offices in Bangkok, Pattaya (Thailand), and Vientiane. In Pattaya, the team observed
behavior-change outreach activities and visited a shelter funded by the project. The team also
met with government officials from Laos and Thailand to learn their perceptions of the project.

Methodology
In assessing the progress of the activities carried out under the cooperative agreement, the
audit team considered PSI’s quarterly and annual progress reports from the start of the project
through December 2013, along with interviews conducted with mission officials, PSI and partner
staff, and government officials. The audit team also considered the project’s midterm evaluation
conducted in June and July 2013 in Burma, Laos, and Thailand and a final evaluation in China.
Finally, the audit team reviewed USAID/RDMA’s data quality assessments of the prime
implementer and its consortium partners conducted in 2013 and 2014.

Through interviews, documentation reviews, and data analysis, the audit team obtained an
understanding of (1) the project’s main goals, (2) how the mission and PSI monitor the project,
(3) how the mission checks the quality of the data reported, and (4) whether the mission, PSI,
and partners were aware of any allegations of fraud or other potential illegal acts or
noncompliance with laws and regulations.

The audit team judgmentally selected 9 of 17 partners (including 3 consortium members) to
conduct site visits in Laos and Thailand. During site visits, the audit team interviewed partner
staff to solicit feedback on the project’s activities, accomplishments, and challenges and assess
the impact of the interventions on HIV/AIDS, malaria, and TB prevalence rates. The audit team
also randomly checked supporting documentation maintained by PSI and each selected partner
to validate reported results on the project’s key performance indicators. We obtained an
understanding of the level of fraud awareness among the staff at each selected location. These
partner site visits, together with visits to PSI’s office, covered about 80 percent of the $17 million
spent by them as of December 31, 2013. In all, the audit team met with 65 people involved with
the project.

Sample selection of sites to visit was based on their location, the number of intermediate results
implemented at each, and the diversity of their activities. Since the testing and site selections
were based on judgmental samples, the results and conclusions related to the analysis were
limited to the items and areas tested, and cannot be projected to the entire population. We
believe our substantive testing was sufficient to support the audit’s findings.




                                                                                                   14
                                                                                             Appendix II



MANAGEMENT COMMENTS


August 15, 2014

MEMORANDUM

TO:                 Regional Inspector General/Manila, Matthew Rathgeber

FROM:               USAID/Regional Development Mission for Asia Mission Director, Michael Yates

SUBJECT:            Management Response to Recommendations in Draft Report on Audit of
                    USAID/Regional Development Mission for Asia’s Behavior Change Communication for
                    Infectious Disease Prevention Project (Report No. 5-486-14-XXX-P)

This memorandum transmits our positions on each of the audit recommendations, plans for corrective
actions with target completion dates, and documentation of corrective action taken thus far.
USAID/Regional Development Mission for Asia (RDMA) agrees with all seven recommendations. Our
responses are listed below.

Recommendation 1. We recommend that USAID/RDMA reassess its manageable interest in the CAP-
3D project and amend the goal in the cooperative agreement as appropriate so that it is realistic,
achievable, and measurable.

Actions Planned/Taken: USAID/RDMA assessed its manageable interest in the CAP-3D project and
amended the goal. The Cooperative Agreement will be modified by September 15, 2014, to reflect the
new goal of “To sustainably increase the uptake of HIV counseling and testing (HCT) among men who
have sex with men and transgender women in USAID supported service delivery sites.”

Recommendation 2. We recommend that USAID/RDMA conduct a cost-benefit analysis of the remaining
budget for the project and make adjustments as necessary.

Actions Planned/Taken: USAID/RDMA conducted a cost-benefit analysis of the consortium partners;
each of the four CAP-3D components: Burma, Laos, Thailand, and Regional; and CAP-3D’s technical
areas of focus (outlined in Attachment A).

The international consortium was not found to be cost-effective. USAID/RDMA notified PSI of this and all
consortium partners will be closed by September 30, 2014.

The Regional and Laos components were not performing well. The Laos program was not able to meet its
targets, was not generating effective programing models, and was not cost-effective. The Regional
component was not able to demonstrate that it added value to the other program components and was a
financial drain on the project. Only the Thailand and Burma components were found to be cost-effective.

U.S. Agency for International Development
Regional Development Mission for Asia
Athenee Tower, 25th Floor, 63 Wireless Road, Lumpini, Patumwan,   Tel: +662-257-3000
Bangkok 10330, Thailand                                           Fax: +662-257-3099


                                                                                                      15
                                                                                                  Appendix II


As a result of these findings, the Laos and Regional components will be closed by September 30, 2014.

Following the cost-benefit analysis of CAP-3D’s technical areas of focus, USAID/RDMA decided to
significantly reduce their scope of work. Going forward, CAP-3D will focus on demand generation for HCT
and building the organizational capacity of local partners, including monitoring and evaluation and
strategic information systems. CAP-3D will discontinue its technical support in the following areas: HIV
prevention, HIV care and support, national management information systems, clinical support for HTC
services, and clinical support for HIV treatment.

Finally, PSI has increased funding to local partners. For the remaining period of the award, $1,205,000,
or 31% of the remaining budget, will go to local partners.

Based on the above action, we believe that final actions have been taken and request that this
recommendation be closed upon issuance of the final report.

Recommendation 3. We recommend that USAID/RDMA implement a plan to strengthen the project’s
monitoring and reporting system and train local partners in its use.

Actions Planned/Taken: USAID/RDMA worked with CAP-3D to develop a plan to strengthen the
project’s monitoring and reporting system, as well as train local partners in its use. Implementation of the
plan began on July 7, 2014. The plan and training schedule are attached (Attachment B).

Based on the above action, we believe that final action has been taken and request that this
recommendation be closed upon issuance of the final report.

Recommendation 4. We recommend that USAID/RDMA review project data previously reported to
Washington and correct any errors found.

Actions Planned/Taken: USAID/RDMA is in the process of conducting data quality assessments of
CAP-3D and their partners to identify reporting errors and correct them. By December 1, 2014, a data
quality assessment team will have visited each of CAP-3D’s local implementing partners and rectified any
reporting errors identified.

Recommendation 5. We recommend that USAID/RDMA implement a plan to make building capacity and
sustainability of local partners a priority. The plan should consider conducting a mapping exercise and the
pre-award surveys of local partners described in the Additional Help for Automated Directives System 303
to qualify them to receive direct funding from USAID.

Actions Planned/Taken: USAID/RDMA worked with CAP-3D to develop a capacity building plan for local
partners, to begin on August 4, 2014. The capacity building plan aims to prepare the local partners to be
self-sufficient once CAP-3D ends and focuses on proposal development, strategic planning, workplan and
budget development, monitoring and evaluation, financial management, human resource management,
demand generation, and governance structure. The revised workplan is attached (Attachment C).

USAID/RDMA will start pre-award surveys of local partners in October 2014, to begin with the Thai Red
Cross. Service Workers In Group (SWING), Sisters, and Rainbow Sky Association of Thailand (RSAT)
will also undergo pre-award surveys in November and December 2014. All pre-award surveys and final
reports will be completed by March 31, 2015.

Recommendation 6. We recommend that USAID/RDMA work with PSI to include fraud awareness
briefings as part of the project’s sharing of lessons learned and best practices.

Actions Planned/Taken: USAID/RDMA will work with PSI to roll out a fraud awareness program for local
partners. PSI will design a tool kit to raise fraud awareness and strengthen internal controls. PSI will
develop and test the tool kit between August 2014 and February 2015, and will roll out with all partners in
March 2015. PSI will monitor the utilization of the tool kit guidance, as well as, adherence to its principles.

                                                                                                            16
                                                                                            Appendix II



Recommendation 7. We recommend that USAID/RDMA implement formal agreements with the
Ministries of Health in Laos and Thailand.

Actions Planned/Taken: USAID/RDMA will pursue formal agreements with the Ministries of Health in
Laos and Thailand to broadly cover all health activities and to the degree possible, sign Memorandums of
Understanding outlining areas of cooperation and collaboration with both of them by July 2015.

List of attachments:

1. Attachment A Cost Benefit Analyses
2. Attachment B M&E Improvement Plan
3. Attachment C Revised Workplan and Budget




                                                                                                     17
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
